<html>
<title> - NATIVE AMERICAN COMMERCIAL DRIVING TRAINING AND TECHNICAL ASSISTANCE ACT</title>
<body><pre>[Senate Hearing 107-623]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-623
 
 NATIVE AMERICAN COMMERCIAL DRIVING TRAINING AND TECHNICAL ASSISTANCE 
                                  ACT
=======================================================================



                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 1344

 TO PROVIDE TRAINING AND TECHNICAL ASSISTANCE TO NATIVE AMERICANS WHO 
          ARE INTERESTED IN COMMERCIAL VEHICLE DRIVING CAREERS

                               __________

                             JULY 24, 2002
                             WASHINGTON, DC










                           U.S. GOVERNMENT PRINTING OFFICE
81-361                          WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001













                      COMMITTEE ON INDIAN AFFAIRS

                   DANIEL K. INOUYE, Hawaii, Chairman
            BEN NIGHTHORSE CAMPBELL, Colorado, Vice Chairman

KENT CONRAD, North Dakota            FRANK MURKOWSKI, Alaska
HARRY REID, Nevada                   JOHN McCAIN, Arizona,
DANIEL K. AKAKA, Hawaii              PETE V. DOMENICI, New Mexico
PAUL WELLSTONE, Minnesota            CRAIG THOMAS, Wyoming
BYRON L. DORGAN, North Dakota        ORRIN G. HATCH, Utah
TIM JOHNSON, South Dakota            JAMES M. INHOFE, Oklahoma
MARIA CANTWELL, Washington

        Patricia M. Zell, Majority Staff Director/Chief Counsel
         Paul Moorehead, Minority Staff Director/Chief Counsel

                                  (ii)








                            C O N T E N T S

                              ----------                              
                                                                   Page
S. 1344, text of.................................................     3
Statements:
    Campbell, Hon. Ben Nighthorse, U.S. Senator from Colorado, 
      vice chairman, Committee on Indian Affairs.................     1
    Fluke, David, professional driver, FedEx Freight West, 
      American Trucking Association..............................    11
    Rush, Andra, president, Rush Trucking........................    14
    Shanley, James E., president, Fort Peck, Community College...     7

                                Appendix

Prepared statements:
    Fluke, David.................................................    23
    Rush, Andra..................................................    25
    Shanley, James E. (with attachment)..........................    26











 NATIVE AMERICAN COMMERCIAL DRIVING TRAINING AND TECHNICAL ASSISTANCE 
                                  ACT

                              ----------                              


                        WEDNESDAY, JULY 24, 2002


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:02 a.m. in 
room 485, Senate Russell Building, Hon. Ben Nighthorse Campbell 
(vice chairman of the committee) presiding.
    Present: Senator Campbell.

 STATEMENT OF HON. BEN NIGHTHORSE CAMPBELL, U.S. SENATOR FROM 
      COLORADO, VICE CHAIRMAN, COMMITTEE ON INDIAN AFFAIRS

    Senator Campbell. Good morning and welcome to the hearing 
on S. 1344, the Native American Commercial Driving Training and 
Technical Assistance Act, which I introduced on August 2, 2001.
    In 1999, the Bureau of Indian Affairs labor statistics for 
Indian and Alaska Native communities determined that the 
unemployment rate for Indians living near or in Indian 
communities was 43 percent.
    This figure is all the more astonishing when compared to 
the 5.6 percent overall jobless rate across the Nation. You 
might say, if you go to some reservations, in fact, the 
unemployment is up around 70 percent, as many people that 
attend our hearings know.
    Like many in Indian Country, I believe that ultimately, 
economic development is the key to curing many of the ills in 
our communities; and the trucking industry is a thriving 
industry providing economic opportunties..
    Based on my own personal experience, having been a driver 
myself, and watching very carefully the driving industry, I 
know it offers well-paying jobs to people that are interested 
in driving; and I certainly think that there is a connection we 
can make with Indian communities. It is a win/win situation. 
The trucking industry needs more qualified drivers and Indian 
communities need jobs.
    According to the Department of Transportation, there are 
currently about three million truck drivers in the United 
States. However, the American Trucking Association estimates 
that between 10 and 20 percent of the Nation's trucks sit idle, 
due to the lack of qualified drivers.
    In fact, estimates range from 200,000 to 500,000, as to the 
shortage of new qualified drivers that are needed this year and 
in the coming years. In fact, there has been some discussion 
about importing drivers from foreign countries, to try and meet 
that demand.
    While S. 1344 is a rather modest bill, I believe it is 
important, because it tailors job training to market demands; 
something that is not always done with Federal job training 
initiatives.
    This bill would encourage Indian tribally-controlled 
colleges to offer commercial vehicle training programs. This 
bill recognizes that tribal colleges and universities provide 
much of the education and vocational training that takes place 
in Indian communities.
    On July 3 of this year, President Bush issued Executive 
Order 13270, in which he stated:

    Tribal colleges provide crucial services in communities 
that continue to suffer high rates of unemployment and the 
resulting social and economic distress.

    I would say that I note with interest that I think it is 
very important to the President to increase opportunities for 
jobs, among all people, and Indian people, in particular.
    We did invite the Department of Labor to send someone to 
this hearing on three separate occasions, and they have 
declined. So apparently, so far, they have been talking a good 
game, but are not that interested in trying to help with jobs 
in Indian communities.
    Two tribally-controlled community colleges, D-Q University, 
which is in the valley near Sacramento, California, and the 
Fort Peck Community College in the State of Montana, both offer 
commercial driving training programs. The grant program 
authorized in this bill will hopefully encourage other tribal 
colleges to develop commercial truck driving training programs, 
as well.
    [Text of S. 1344 follows:]
      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Campbell. We have three witnesses this morning, and 
the Department of Labor, as I mentioned, is not here. But we 
will hear from Dr. James Shanley, the president of Fort Peck 
Community College, Poplar, MT; David Fluke, who is a 
professional driver with Fed Ex West, who will be here from the 
American Trucking Association, of Citrus Heights, CA; and Andra 
Rush, the president of Rush Trucking, in Wayne, MI.
    Thank you all for being here. Your complete written 
testimony will be included in the record. If you would like to 
abbreviate your testimony, please do so. We will go ahead and 
start with Dr. Shanley.
    Dr. Shanley, please proceed.

 STATEMENT OF JAMES E. SHANLEY, PRESIDENT, FORT PECK COMMUNITY 
                            COLLEGE

    Mr. Shanley. Thank you, Senator Campbell, and distinguished 
members of the committee. I would like to thank you for 
inviting me today to testify before your committee.
    My name is Jim Shanley. I am here in the capacity of being 
the President of the American Indian Higher Education 
Consortium, and I am also the president of Fort Peck Community 
College, which is located in Northeastern Montana. It is on the 
Fort Peck, Assiniboine and Sioux Reservation.
    In 1972, six tribally-controlled colleges established the 
American Indian Higher Education Consortium, to provide a 
support network for its member institutions. Today, AIHEC 
represents 32 tribal colleges and universities in 12 States, to 
specifically serve the higher education needs of American 
Indians.
    As we sit here, we have four or five more tribal colleges 
that are in the development stages, in other places around the 
country.
    Over the past 3 decades, tribal leaders have continued to 
recognize that only through local, culturally-relevant, 
holistic methods can many American Indian succeed in higher 
education.
    Collectively, the tribal colleges currently serve 
approximately 30,000 full part-time students, from over 250 
federally-recognized tribes.
    A majority of our member institutions offer 2-year degrees 
and vocational certificates, with eight colleges offering 
Baccalaureate Degrees, and two that offer Master Degree 
programs. In addition, many of the colleges have distance 
education programs, through articulation agreements with major 
colleges and universities that offer a whole other variety of 
degrees.
    Together, we are proud to say that we represent the most 
significant and successful development in American Indian 
education history, promoting achievement among students who 
would otherwise never know educational success.
    Tribal colleges and universities are deeply tied to the 
welfare of our respective communities. Our reservations are 
located in remote area, and our populations are among the 
poorest in the Nation. On the average, median household income 
levels are only about one-half of the level of the U.S. 
population, as a whole.
    Conditions on the reservation make for stagnant economies. 
Post-secondary educational programs at tribal colleges, 
including vocational education, make it possible for our 
students to train for and obtain jobs that offer stability, 
benefits, and a decent salary; which, in turn, reduces welfare 
dependency, and provides an economic boost to local 
communities.
    Most importantly, these programs, and the resulting boost 
in employment, aid in providing a sense of self-sufficiency 
that is critical in moving the American Indian people forward.
    Tribal colleges serve multiple roles in our community 
functioning as community centers, libraries, tribal archives, 
career and business center, economic development centers, and 
public meeting places. TCU's also serve as a practical resource 
for the upkeep of community property.
    Programs, such as the one proposed in S. 1344, that require 
the acquisition of equipment that can serve dual uses, are a 
ready aid to tribal governments. When not in use by the college 
for training programs, this equipment can be utilized for 
reservation economic development projects, such as construction 
of student and community housing, paving of local roads, and 
hauling food supplies and building materials.
    Mr. Chairman, despite the remarkable accomplishments, 
tribal colleges remain the most poorly funding institutions of 
higher education in the country. Funding for basic 
institutional operations for the 24 reservation-based colleges 
is provided through the Tribal Controlled College and 
University Assistance Act of 1978. Funding under this act is 
authorized at $6,000 per full-time Indian student.
    In fiscal year 2002, 21 years after funding for 
institutional operations was first appropriated, the colleges 
are receiving $3,916 per Indian student. So we receive less 
than two-thirds of the authorized level, after 21 years of 
support for our programs.
    While mainstream institutions enjoy a stable foundation of 
state and local support, TCUs rely on annual appropriations 
from the Federal Government for their institutional operating 
funds.
    Because we are located on Federal Trust lands, States bear 
no obligation to fund our colleges. In fact, most States do not 
even pay our colleges for the non-Indian State resident 
students, who account for approximately 20 percent of our 
enrollment.
    Vocational educational programs and work force training are 
time-honored methods for improving the livelihoods of those who 
seek quality job skills in less time than it takes for a more 
formal course of study.
    It used to be, year ago, they always said that Indians were 
good with their hands, when they made us go to vocational 
programs. We do not say that much anymore.
    But I think that many of our people do really drift toward 
vocational programs. Because, number one, vocational programs 
give you skills that allow you a little more independence.
    Sometimes you can start your own business. It helps to move 
you in that direction, and it gives you more freedom. Plus, it 
also gives you the ability to do outdoor work, which people 
like. Many people on reservations like to work outside, or to 
work around things that involve a variety of environments.
    Our tribal colleges now offer a wide range of vocational 
education, specifically tailored to the needs of the students 
and their communities. Today, as this legislation recognizes, 
there is a tremendous need for commercial vehicle drivers, and 
that need will only increase.
    This legislation would enable tribal colleges and 
universities to expand even further the range of employment 
possibilities available to American Indian students, and 
provide them with entry into this rapidly expanding and 
lucrative job market.
    One of the reasons that there are only a few tribal 
colleges that offer programs in commercial vehicle operation 
right now is that the starting costs are prohibitive. The per-
student cost estimates do not take into account the enormous 
expense of equipment acquisition and maintenance.
    A brand new tractor-trailer of the type frequently seen on 
our Nation's highway could cost up to $150,000. Even to buy a 
used vehicle, oftentimes, to get a good working used vehicle, 
you know, you are talking anywhere from $15,000 to $50,000. So 
even used vehicles are difficult to obtain for trial colleges 
that do not have very much money to spend per student.
    In addition to the cost of the equipment and the equipment 
acquisition, insurance is a huge expense. Then you have repair 
and maintenance of the vehicle, fuel, and the other operating 
costs, as well as the costs of instruction. You have to have 
qualified people.
    If there is a shortage of drivers crossing the road, you 
can imagine how difficult it is to find qualified truck 
drivers, who are willing to forego the money they could make, 
as a commercial truck driver, and teach the craft.
    In Montana, we have two commercial truck driving 
operations. One is at Salish Kootenai College, on the Flathead 
Reservation in Western Montana; and the other one is at Fort 
Peck, where I am at.
    At Salish Kootenai, Joe McDonnell estimates that they spend 
$300,000, annually, to maintain their highway construction 
worker program, is what it is called. It costs approximately 
$12,500 per student. This does not include the equipment 
acquisition costs.
    At Fort Peck Community College, our costs are probably 
somewhat similar. At our college, we do not receive State aid, 
or we receive a very minimal amount of State aid. Of course, 
our students receive Pell Grants, and that kind of thing, but 
that barely offsets the costs of tuition for our institutions.
    The way that Joe has been able to piece his program 
together is through different Federal grants. He has been able 
to get some equipment through the GSA Surplus Program, and then 
he has some support, I think, off and on, from the Department 
of Labor and some from the Department of the Interior. Other 
construction projects that have taken place on the reservation 
have helped to fund and fuel that trucking program at Salish.
    At Fort Peck, we are very similar. We started out and we 
bought a used truck for $4,500. It created a lot of problems, 
because it did no have power steering. So it was difficult for 
us to teach women, because they literally could not turn the 
truck. So equipment is a very costly and constant problem for 
us.
    Of course, we find that students not only need to be 
instructed in the fundamentals of trucking driving or another 
chosen trade, but they also need basic job seeking and related 
skills. They really need to learn how to work.
    In many instances, there is a lot of our reservation 
population that just simply do not have the job skills. They 
have never been trained. They do not understand the 
requirements and the responsibilities of work. It is going to 
take some time to train some of those people.
    At Salish, for the people that are going into truck 
driving, the students are required to complete a course in job 
seeking skills, which prepared them to find the jobs, the 
employment in their chosen field. But it also gives them some 
skills that will help them to keep the job, once they find 
them.
    We believe that there is a comprehensive approach, that 
would be invaluable to bringing a truck driving program, so 
that it actually really produced working drivers.
    The Consortium, as a whole, fully supports this measure, as 
providing positive assistance to our students, to realize their 
full potential, and offer greater benefits to the economic 
health of our communities.
    Tribal colleges are deeply appreciative of any means in 
which they can increase and stabilize funding in operation and 
program areas.
    Senator the proposed legislation does not mention specific 
language about the level of funding or the duration of grants; 
only the number of grants available. As noted earlier, 
vocational education programs not only have tremendous start-up 
costs, but they have considerable day-to-day operational 
expenses, as well.
    One concern that we have is expending the significant costs 
involved with starting this type of program, and then not being 
able to maintain it over several years. In other words, we 
would reach the point where we would actually get the trucks, 
and then we do not have enough money to put fuel in them.
    So we would hope that if this bill is passed, that there 
are adequate funding levels, and a long enough time period 
built into the program, so that colleges would be able to 
maintain it, over a number of years.
    The awarding of 3 to 5 year grants would solve this problem 
by providing stable funding to get a program up and running. In 
addition, we suggest that the legislation not limit to four the 
number of grants that may be awarded by the Secretary of Labor; 
but instead, specify an adequate amount of funding to support 
that number of grants.
    In other words, if it is going to cost $1.2 million a year, 
for 5 years; $300,000 a year, for a program, then specify $6 
million. If additional funding can be secured for this program, 
the Secretary would not be limited to four awards.
    There may be some institutions that have other resources, 
that may not need quite as much money to run a program, so we 
may be able to get five or six programs for the cost of four, 
as well. This would allow more colleges the chance to think 
about developing this kind of opportunity.
    We also believe that there could be additional employment 
opportunities, if the proposed definition of commercial driving 
were expanded beyond driving of a vehicle which is tractor-
trailer truck; thereby giving the tribal colleges the 
flexibility to train students to do other truck and heavy 
equipment driving.
    In many areas, that type of driving, which tends to be more 
seasonal, is also one of the major local employment areas. For 
example, at Fort Peck, we are involved, right now, in planning 
and designing a $200 million water system, that is going to 
serve the whole of Northeastern Montana.
    That project, if it comes to fruition, will last for 10 
years, and will require a whole number of driving-related skill 
areas; from CAT operators to truck drivers to belly-dump 
haulers to water trucks, and a whole gamut of things.
    In addition, highway construction is also a major area, 
where many of our people would be able to go to work, at least 
seasonally, in Montana.
    There are also a few technical changes that AIHEC would 
like to respectfully suggest be made to S. 1344. I will ask 
that our AIHEC staff address these minor changes, and work with 
the staff of the committee, with whom they have long enjoyed a 
very productive working relationship. Hopefully, we can work 
with you to try to help make this bill more tailored to meet 
the needs of the trial college.
    [Prepared statement of Mr. Shanley appears in appendix.]
    Senator Campbell. Thank you, Dr. Shanley.
    I might tell you that this is a vehicle, if I can use that 
phrase, as all first attempts are with bills. We welcome your 
input and changes that need to be made.
    I might tell you how I got the idea for this bill. It was 
in Montana. I was up visiting home, which is Lame Deer, in 
Central Montana, and I ran into a young Cheyenne, that I had 
known years and years ago. I had not seen him for a number of 
years, and I asked him what he was doing.
    He said he was working for Dick Simon, which is a big 
trucking company in Billings. I asked him how he liked the job. 
He was an over-the-road driver, all over the States. He said, 
great. He did not like being home as little as he was, but he 
had been trying to get home at least two days out of every 
week, which was pretty good for some of those long line guys.
    But I asked him about the pay and the opportunities, and he 
was thrilled at the opportunity to make between $40,000 and 
$50,000 a year, in a place where you have probably 60 percent 
or more unemployment.
    That is where I really got the idea for this. There must be 
a lot of young Indian men and women, who do not mind the travel 
a bit. In fact, they like to travel. But if they could couple 
that with an opportunity to make a living, particularly in this 
new day of what is called team driving, there might be some 
real possibilities. That is why we framed this bill up. But we 
know that any bill can be improved on; that is for sure.
    Let us go on with Mr. Fluke. I will ask questions after we 
finish with the whole panel; thank you.

 STATEMENT OF DAVID FLUKE, PROFESSIONAL DRIVER, FED EX FREIGHT 
              WEST, AMERICAN TRUCKING ASSOCIATION

    Mr. Fluke. Thank you, Senator.
    Vice Chairman Campbell, members of the committee, thank you 
for the opportunity to express the trucking industry's 
perspectives regarding truck driving training issues; and more 
specifically, Senate Bill S. 1344, the Native American 
Commercial Driver Training and Technical Assistance Act.
    I am David Fluke, a professional truck driver for Fed Ex 
Freight West, based in Sacramento, CA, a distinguished member 
of the American Trucking Association's America's Road Team, and 
a proud member of the Cherokee Nation.
    I have driven large trucks professionally in the U.S. for 
18 years and am proud to communicate to you the fact that I 
have logged over 1.8 million accident-free and citation-free 
miles behind the wheel.
    I am appearing before the committee today on behalf of the 
American Trucking Associations. ATA is a national trade 
association of the trucking industry. ATA represents an 
industry that employs nearly 10 million people in our great 
country, providing 1 out of 14 civilian jobs.
    This includes the more than 3 million professional drivers, 
who travel over 400 billion miles per year to deliver Americans 
87 percent of their transported goods.
    Mr. Chairman, ATA supports S. 1344, and commends Senator 
Campbell for its introduction.
    Looking at the industry figures I mentioned, you can 
readily see that the old adage, ``If you got it, a truck 
brought it,'' is truer now than it has ever been. I, 
personally, know of one thing that trucks do not deliver.
    Trucking is one of the most essential industries to the 
American economy. Every business and every person in this 
country relies on a truck to move America's goods safely and 
efficiently. Drivers, of course, are the key to delivering the 
freight on time, every time.
    The keys to a thriving trucking business are literally and 
figuratively in the hands of the company's professional 
drivers. While professional driving continues to become more 
complex, requiring more sophisticated skills, and a higher 
tolerance of stress than ever before, I am pleased to report 
that truck drivers are delivering the goods more safely and 
more efficiently than ever before.
    According to the U.S. Department of Transportation, the 
safety trends in the trucking industry are clearly headed in 
the right direction. DOT reports that fatal crash rates for 
large trucks have declined from 4.6 fatal crashes per 100 
million miles traveled in 1980, to 2.2 fatal crashes per 100 
million miles traveled in the year 2000. That is a 52-percent 
decrease.
    DOT also reports that alcohol involvement for large truck 
drivers involved in fatal crashes has declined 73 percent, 
since 1982.
    It is for these and other reasons that professional drivers 
like me are proud of our profession and the industry we work 
within.
    Mr. Chairman, ATA and its members have been involved in 
driver training issues since ATA's establishment in the 1930's. 
The reason for this involvement is simple. Well-trained drivers 
are safe drivers, and safe drivers save companies money.
    Well-trained drivers are also more productive. They are 
also good caretakers of their equipment, and they are more 
adept at customer relations. Company investments in training 
and driver development result in an improved safety 
performance, and a reduction in personnel problems.
    While ATA has been active in many driver training 
initiatives, two are of particular note. The first is the ATA 
support for the Professional Truck Driver Institute. PTDI has 
become the Nation's foremost advocate of optimum standards and 
professionalism for entry level truck-driver training.
    PTDI also provides a forum through which the key 
stakeholders: insurers, training schools, and motor carriers, 
are able to help ensure that America's entry-level drivers have 
been properly trained and are competent to enter the industry.
    ATA supports the mission of PTDI, and has provided both 
financial and technical assistance to the institute for many 
years.
    Additionally, ATA was one of the founding members of the 
Driver Training and Development Alliance in 1994. Fourteen 
trucking-related associations agreed to form the Driver 
Training and Development Alliance, in order to gather, 
disseminate, and promote success with voluntary driver-training 
programs and activities.
    Throughout the 1990's, the Alliance sponsored annual forums 
for stakeholders to discuss and advance key training issues. It 
created a practical guide to identify commercial drivers as 
higher risk for accidents and violations, and established 
effective counter-measures; and its members assisted in 
reviewing and improving PTDI's certification process for entry 
level driver training programs.
    Through its involvement in these organizations, ATA has 
been a driving force, improving both entry-level and in-service 
driver training.
    Mr. Chairman, unfortunately, the trucking industry has been 
plagued with chronic shortages of qualified drivers. ATA 
estimates that the trucking industry will need more than 80,000 
new professional drivers for each year for the foreseeable 
future. Thus, programs and initiatives aimed at expanding the 
pool of potential drivers is quite welcome.
    Additionally, the changing demographics of this country 
have clearly changed the trucking industry's recruiting 
practices. In its early days, trucking drew young, white males, 
who sought independence and wanted to use the open road to see 
the country.
    Well, minorities are growing dramatically as a percentage 
of the U.S. population; and as a result, the industry is 
actively recruiting more drivers from minority groups, such as 
Hispanics and Native Americans.
    Mr. Vice Chairman, ATA supports the effort of you and this 
committee to promote professional truck driver training 
programs at tribally-controlled community colleges. S. 1344 
holds the potential to provide a good opportunity to many 
Native Americans interested in having an exciting career, while 
moving America's economy forward.
    Professional truck driving is a career that more than 3 
million Americans currently call their own. It is also a job 
that offers an opportunity to make a good wage; currently, more 
than $40,000, annually.
    At the same time, this bill would provide opportunities for 
the Native American. It would be assisting the trucking 
industry by expanding the pool of qualified driver candidates, 
an expansion that is sorely needed. S. 1344 offers the 
proverbial win/win scenario.
    Thank you, again, Mr. Vice Chairman and committee members, 
for the opportunity to offer our thoughts on professional 
truck-driver training issues and on S. 1344. We look forward to 
working with the committee in any way that we can, to put more 
well trained and qualified drivers on the Nation's highways.
    Thank you.
    [Prepared statement of Mr. Fluke appears in appendix.]
    Senator Campbell. Thank you.
    Andra, you may go ahead.

       STATEMENT OF ANDRA RUSH, PRESIDENT, RUSH TRUCKING

    Ms. Rush. Good morning. Mr. Vice Chairman, Senator 
Campbell, and distinguished members of the committee, thank you 
very much for the opportunity to address this committee on the 
Native American Commercial Driver Training and Technical 
Assistance Act, S. 1344.
    My name is Andra Rush. I am president of Rush Trucking 
Corporation, a $150 million long-haul and expedited operation, 
based in Detroit, Michigan, serving the automotive industry for 
over 18 years, or since 1984.
    I am of the Mohawk Nation's Six Nations Iroquois 
Reservation, Oshweegon, Ontario. As I have been in this 
industry for over 18 years I have seen a tremendous rise in the 
demand for qualified drivers within the industry.
    We are faced with an ever-increasing demand of inventory 
velocity and transportation, via truck versus rail, has gained 
popularity, year after year.
    The automotive industry has been a leader in minority 
supplier development and training, and as a result, several 
small businesses have emerged, creating numerous employment 
opportunities, and further promotion of diversity-based 
suppliers in North America.
    As you have heard today, the driver shortage has been a 
critical problem in our industry since the early 1990's. The 
statistics demonstrate the demand for a solid driver to fill 
the vacancies that exist now and in the future. The fact is, 
there just are not enough qualified and trained drivers to 
support the industry demand.
    Competition in our industry has pressured small businesses 
to focus on survival, and the limited financial resources have 
threatened the ability to provide the training and technical 
assistance necessary to private create and fund driving 
schools.
    As this committee well knows, economic self-sufficiency, 
for Native people, remains an illusive goal. In spite of more 
than 175 years of Federal support and oversight, Native 
American rank last in every measurement of quality of life in 
the United States.
    As president of Native American Business Alliance, which is 
an organization we formed seven years ago, in conjunction with 
Ford, GM, Daimler-Chrysler, Toyota, and Honda, we have grown to 
more than 50 Fortune 500 companies, and more than 200 Native 
American business owners.
    I believe that America's First People can realize the 
American dream and reclaim their proud heritage by identifying 
and capitalizing on the gaps and niches in the American work 
force.
    I am confident that the commercial vehicle driving 
professional career will create a work force that can rapidly 
be employed, and contribute to the solution of the drive 
shortage facing our industry, and allow the Native people to 
remain on tribal lands, and find employment that provides a 
living wage, solid benefits, and opportunity for advancement.
    Both testimonies today from Dr. Shanley and Mr. Fluke 
addressed the level of funding and duration of the program, 
that I think needs to be a little more clear, within this bill.
    It is my goal that the U.S. Senate approves and supports 
this legislation, and I would like to thank you very much, 
Senator Campbell.
    [Prepared statement of Ms. Rush appears in appendix.]
    Senator Campbell. Thank you.
    Let me ask you, and I will maybe just start with Dr. 
Shanley first, you mentioned the dual use of equipment. How do 
you prioritize who uses it, and how do you work out the 
maintenance, insurance, upkeep, whatever, if it is used for 
private companies, Indian companies, I guess, on the 
reservation; or is it used for tribal council-authorized 
programs, or what? How do you fit that in with the training 
that you need to do?
    Mr. Shanley. Well, what we do right now, Senator, is the 
college has a limited amount of equipment, in terms of heavy 
equipment. We only have the one truck.
    So we have a program that is called our Tribal Enterprise 
Program. The Tribal Enterprise Program does low level 
construction activities for the tribes, like building 
driveways. They do some snow removal, and they do things like 
this.
    So we use some of their equipment, some of the time. Like, 
if they need to use our truck, we let them use our truck, if 
they let us use their lowboy to haul our backhoe. So we work 
constantly, primarily with tribal programs, to try to 
accomplish things that have to be done around the reservation.
    Senator Campbell. I see.
    Mr. Shanley. And we have done some cooperative work with 
the Bureau of Indian Affairs, as well. We have done a little 
bit with Indian House Service, in terms of working on sewer 
projects and dirt digging projects; but we have not worked very 
much with private industry. It has been primarily tribal work.
    Senator Campbell. For instance, I understand truck driving 
is one of the things that the Veteran's Administration will pay 
for, the training, if you are a veteran. Has your school looked 
into trying to help Indian veterans, through the Veteran's 
Administration, to get the training paid for?
    Mr. Shanley. We do have a few Indian veterans that come to 
school, and they are eligible for VA benefits, as an 
individual. If they chose truck driving, they can receive that 
money for taking truck driving courses.
    The actual number of veterans now, though, has dropped off, 
over the last several years. The last rush we had was during 
Desert Storm.
    Senator Campbell. Yes.
    Mr. Shanley. We are having a few that are tricking back 
now, but we are not getting a large number of veterans that are 
attending our institution.
    Senator Campbell. Well, you mentioned the difficulty of the 
expense and a little bit about the complexity of driving the 
big rigs.
    But there are different levels of commercial driver's 
licenses. If you have one truck, then for instance, you get 
endorsements when you drive, for the basic driver skills, and 
you get one for air brakes. You get one for HAZMATs. You get 
one for doubles and triples. You get one for tankers. You get 
all these different endorsements, as you take the tests.
    So the training you do is just basically for the basic 
level of CDL. Is that correct?
    Mr. Shanley. It is the basic level, and then we work with 
the tribal programs in providing the hours necessary for some 
heavy equipment, some pieces of heavy equipment.
    Then we also have a hazardous materials program at the 
college, that works with them on the hazardous materials 
portion of the CDL.
    Senator Campbell. When they get that, normally, people that 
learn to drive, they have to take a State written test. But the 
driver test, itself, is usually done by the driving school; or 
the State can do it, in most States.
    Do you do the testing at the school, or do you send them to 
the State?
    Mr. Shanley. The State does the testing.
    Senator Campbell. It is the State.
    Have you worked at all with any other schools; or maybe a 
better question would be, when you graduate somebody, do you 
have any access to some of the hiring agencies?
    For instance, at many of the big truck shows, like Mid-
America, Louisville, there are literally dozens of recruitment 
booths, Warner, Swift, these big outfits. They have booths 
there, where they are openly trying to recruit students.
    In fact, I understand, in some cases, if you, as a young 
person that wants to go to driver training, you can sign a 
contract with some of these big companies; where you sign a 
contract saying that you will go to work for them after you 
graduate, and they, in fact, will pay for your training. That 
is done with a number of big companies, because they need 
drivers so badly.
    Has your college tried to work with any of these big 
trucking firms, to see if they would pay for some of the 
training, on the condition that the graduate goes to work for 
them.
    Mr. Shanley. No, Senator; we have not, to this point. 
Primarily, it is because we have not had that large a critical 
mass of students that we have graduated. Most of the people 
that we do have that graduate, are absorbed almost immediately 
right into our local economy.
    Particularly on a seasonal basis, we need truck drivers for 
the Bureau of Indian Affairs Roads Program. There is always 
ongoing highway construction. As you know, Montana has some 
pretty poor roads, and they are working on them constantly.
    Senator Campbell. Yes.
    Mr. Shanley. So our people, you know, they tend to get 
absorbed almost immediately.
    Senator Campbell. So you do not really need a placement 
service for them; but usually, if they get the training, they 
can find something locally.
    Mr. Shanley. If they go to the State Employment Service, 
they are hired almost immediately. Usually, though, it is in 
construction-related types of activities, as opposed to cross 
country driving.
    Senator Campbell. Yes; well, that just reinforces how badly 
drivers are needed, frankly.
    You also mentioned job-seeking skills. If they are 
literally ready to be hired when they get out, if the market is 
such that they need drivers that bad, and the minute you 
graduate somebody, they have kind of got a job, what is the big 
importance of a job-seeking skill?
    Mr. Shanley. Well, I think I might have misstated that a 
little bit, in the sense that it is probably more job-readiness 
skills. Our people need to be able to get up on time and make 
it to work; and they need to make it to work, day after day 
after day.
    Senator Campbell. It is called work ethic, I think.
    Mr. Shanley. Right, yes, and we have as much of a problem 
with the work ethnic-related stuff, or probably more of a 
problem with that than we do with the skill level types of 
things.
    Senator Campbell. You also mentioned the demand for 
drivers, that perhaps ought to be expanded to include other 
vehicles. I am thinking in terms of some Indian drivers that I 
know, that drive school buses. Where do they normally take 
their training for the school buses?
    Mr. Shanley. Well, again, it is the basic CDL license, and 
they could take that training through us or they can, you know 
try to do it on their own.
    Senator Campbell. Okay, but they have to get the bus 
endorsement.
    Mr. Shanley. Right.
    Senator Campbell. That usually means they have to do some 
training in a bus.
    Mr. Shanley. Well, we can provide that training for them. 
We have buses available through our tribal transportation 
system, that we can use for that purpose, if we have somebody 
that wants to get a bus certification.
    But those jobs are local jobs that are available in almost 
every community. There is always a continual need for those 
people, as well.
    Senator Campbell. How long is the training that you put a 
student through?
    Mr. Shanley. I think it is 1 year long for the certificate. 
But people can move through it faster, depending on their 
ability to take the CDL; and then they have so many hours for 
each of the different types of endorsements. I do not know 
those, offhand.
    Senator Campbell. It seems to me, most schools, if you go 5 
days a week, on a full-time basis, 8 hour days, I think for all 
the endorsements, for all the training and everything, it is 30 
days or less.
    I think the U.S. Truck Driving School, it is called, they 
have facilities all over the country. I think theirs is 30 days 
or less, if you do it full-time.
    But obviously, if a student is coming to you, sometimes he 
is already working somewhere else, part-time, to keep his 
family in food, while he is doing the training. So I can 
understand why it would take a little bit longer.
    Have you sought out any private grants; for instance, 
perhaps from Packard that owns Peterbilt and Kenworth or 
Freightline, or some of these great big outfits? I mean, they 
are into making trucks, but if there is nobody to drive them, 
they are not going to sell as many trucks. I would think that 
they might be interested.
    Mr. Shanley. No; not from the trucking industry. It is not 
because we would not. We just have not really known how to go 
about doing that.
    We have had vocational education grants and other types of 
grants, that have provided some resources to our program; but 
again, those have been limited. We have also got, like JTPA 
money through the tribes; the Job Training Partnership Act.
    Senator Campbell. Oh, yes.
    Mr. Shanley. And we have access to other types of 
employment; things like AVT, that runs through the Bureau of 
Indian Affairs.
    Senator Campbell. You mentioned that you have one truck 
that you do most of the training in?
    Mr. Shanley. Yes.
    Senator Campbell. What is it; what kind of a truck?
    Mr. Shanley. I really could not tell you.
    Senator Campbell. Is it like a dump truck or an 18 wheeler?
    Mr. Shanley. Oh, it is a semi, a tractor trailer; and then 
we have access to a variety of other equipment. We have a Belly 
Dump and a lowboy, that the tribe has, that we can use.
    Senator Campbell. I see, okay.
    Mr. Fluke, just looking at all these notes that I scribble 
while people are talking, I have got to ask you this first one. 
What is that one thing that trucks do not haul? I saw Ms. Rush 
also get a surprised look on her face. [Laughter.]
    I threw that in, because I knew that I would get the 
question.
    Senator Campbell. You just wanted to see if I was 
listening.
    Mr. Fluke. There is only one thing that I know of, 
personally, that trucks do not deliver.
    Senator Campbell. Can you say it for the record?
    Mr. Fluke. That is babies.
    Senator Campbell. Oh, yes. [Laughter.]
    Mr. Fluke. However, truck drivers have delivered a number 
of those, also.
    Senator Campbell. Yes; and I am sure that their families or 
their wives have them, or their husbands are in the process, 
too, there.
    Why did you take up driving, and in your experience, do you 
know of many Native Americans that are driving?
    Mr. Fluke. I left a promising career at Safeway Stores. I 
was an assistant manager in the stores. I decided that I wanted 
to go into business for myself and make my million. Obviously, 
I did not quite make it. I did gain a million worth of 
experience, though.
    Senator Campbell. I know people in the trucking industry 
that say if you want to be a millionaire, you start with $2 
million and go to $1 million.
    Mr. Fluke. $2 million and go to $1 million; that is 
correct.
    I know of several Native Americans that I have encountered 
through my driving career in 18 years. I can honestly say that 
each and every one that I have met have been very safety-minded 
individuals.
    They have been very conscientious, not only about their 
job; but more importantly, about the equipment that they drive. 
They realize that if it is broken, they are not going to make 
any money. That is not to say that people are not that way.
    Senator Campbell. Those few Indian drivers that you met, 
did they own their own?
    Mr. Fluke. I have met some owner-operators, and I have met, 
at Fed Ex Freight, where I am currently working, there are a 
number of us that are just kind of inter-mixed in with the 
masses, so to speak.
    Senator Campbell. You mentioned that it becoming more 
complex each year; and Dr. Stanley talked a little bit about 
the truck they have, that does not have power steering, which 
limits the ability for women to drive them, sometimes, because 
it requires some strength.
    What are some of the things that have made it more complex?
    Mr. Fluke. In my 18 years, I have gone from something that 
had a seat that bordered on a wooden box, to something that is 
creature-comfort, that you would find in a Cadillac, or 
anything that you see.
    Senator Campbell. Air condition, power, and all that.
    Mr. Fluke. Exactly; anything that you see on your 
automobile that you drive, you pretty much can find that and 
more in a commercial truck today.
    We have GPS systems. We have satellite tracking. They have 
come out with ABS brakes, not only on tractors, but trailers. 
There are sensors for not only axle temperatures, but for 
weight, like, the logging industry. It is phenomenal. The 
trucks are no longer just mechanically controlled. They are 
computer controlled.
    Senator Campbell. Yes; and they are expensive.
    Do you know of any efforts that the ATA has made to attract 
Native Americans; or do they have any programs to attract any 
minorities, for that matter?
    Mr. Fluke. ATA represents the trucking companies. They have 
guidelines for training entry-level drivers; not selection 
guidelines. They have, through PDTI and the Alliance, 
guidelines that they provide to schools. The schools, in turn, 
put out a quality driver.
    As far as specific targets of minorities, at this point, 
Senator, I believe that as long as he is a safe, well-trained 
driver, the ATA would welcome anyone on the Nation's highways.
    Senator Campbell. Many Indian reservations are in pretty 
distant areas from major metropolitan areas, as you probably 
know.
    How important is location to the trucking industry, when 
you are recruiting new drivers? I know a lot trucking 
companies, they put you through more training, even after you 
go to work.
    Mr. Fluke. Correct; I am familiar with D-Q University there 
in the Sacramento Valley and their location. They are located 
between I-505, which connects I-5 and Interstate 80.
    I am sure that the graduates that graduate from there are 
placed in a company that will get them home regularly, because 
they are on a much well-traveled truck route.
    In Doctor Shanley's case, I am not real familiar with the 
northwestern part of Montana. But I am assuming that they seem 
to be a little more remote than D-Q University. Their students, 
if they want to go into the industry, as opposed to working on 
tribal projects, may have to relocate.
    But it seems to me that anyone that has graduated from a 
truck-driving school, their main goal in life is to drive a 
truck. So you go where the opportunity is.
    With Fed Ex Freight, for instance, we are hiring qualified 
drivers at this moment, in areas in the northwest and in the 
southwest, in the Arizona area and in the L.A. Basin. But 
unfortunately, we require some experience.
    Entry level companies like the one you suggested, Werner 
and Swift, will train a driver, and help them acclimate to the 
changes in lifestyle.
    Becoming a professional truck driver is not just going down 
and passing the CDL and climbing in the seat, and off you go. 
There is a change in a person's lifestyle. You are gone several 
days at a time.
    It behooves the trainer that is training these people to 
also recognize this fact, and to train, if you will, the spouse 
that is left behind at home.
    But the career, there are endless opportunities in this 
career. I see it, for the Native American people, there is a 
positive to this. They can expand their way of life, their 
lifestyle.
    I look at this program, two years from now, when this bill 
is passed, we are going to be back here, seated at this table, 
asking you for more money, because we have had such a dramatic 
turnout from Native American people.
    Not only when these people are successful, are they going 
to be successful for their own reasons and their own people; 
but they are going to be successful for this country. What is 
more, they are going to be a positive image, a role model, if 
you will, for the people that are coming up, generations to 
come.
    Senator Campbell. I like that response. Indian people 
generally like to travel, too, and they like to see new things. 
The advantage of that is that they bring home new ideas, too.
    Mr. Fluke. Where else can you go on vacation and get paid 
for it?
    Senator Campbell. Yes; I have had people tell me that.
    Ms. Rush, I thought it was really interesting that you are 
a woman owner of a business that historically there tends to be 
more men involved than women, and a Native American woman, at 
that, and successful. I am sure it has not been easy, doing 
that.
    Ms. Rush. No.
    Senator Campbell. What suggestions would you make to help 
encourage Native Americans to go into the trucking industry?
    Ms. Rush. Well, I would suggest that if you can expose the 
you to the truck shows, like the one in Kentucky that you 
mentioned; and what we do, with our drivers, we let them bring 
their 13, 14, 15 year old children, to ride with them to get 
the experience.
    So I think it is having exposure and on-hand, and seeing 
the brand new trucks, and really marketing to the colleges. 
Where our business is focused, I tend to be more towards the 
Canadian reservations.
    Senator Campbell. Yes; your business primarily hauls 
automobiles, did you say?
    Ms. Rush. Auto parts to assemble all the automobiles.
    Senator Campbell. Auto parts, okay.
    Ms. Rush. So we are in the I-75 Corridor and Central 
States.
    Senator Campbell. Are there any other Native Americans in 
your firm, that are drivers?
    Ms. Rush. Yes; well, my vice president of operations is 
Native American. That is my sister. My father helped me when we 
started out, in terms of, he got the maintenance jobs.
    Senator Campbell. This is off the subject a little bit, but 
how did you happen to get involved in trucking heavy trucks?
    Ms. Rush. I tell most people, because I could not sing or 
dance.
    Senator Campbell. I cannot either. That is why they elected 
me. [Laughter.]
    Ms. Rush. Well, I am thinking of taking lessons.
    But actually, I had a summer internship with an air freight 
company.
    Senator Campbell. Do you drive?
    Ms. Rush. I do not drive anymore. I go forward well, but my 
backing up is poor. I started off with small 18- footers and 
24-footers. I started with three trucks, and would get the call 
at 3 a.m.; you are our last hope. [Laughter.]
    But truthfully, the trucking industry, when I was going to 
college, was the industry of the 2000's. It was the fastest 
growing industry. It was not what you made. It was how you got 
the product to the consumer that was going to be the challenge.
    I thought it was pioneering. So that intrigued me. Probably 
at the age I started, I thought I could retire, you know, by 
26. So I had a lot of ambition.
    But it is very appealing to several races and several 
people of America, because you do have the freedom. You get an 
assignment and the you do have the freedom. But you do have to 
have the work skills.
    Senator Campbell. Yes; I note that there is a larger 
percentage of women drivers now than there used to be, years 
ago. In fact, visiting a couple of truck driving schools, I was 
really amazed at the number of women that are enrolled; and 
some of them are doing very well. Some that are driving with 
their husbands, between the two of them, they are making 
$100,000 a year, or more.
    Ms. Rush. Yes.
    Senator Campbell. I mean, I think it is just terrific, you 
know. Of course, they get equal pay. That speedometer does not 
know if you are a man or a woman behind the wheel. I mean, you 
get equal pay.
    Do you know of any Native American women drivers, at all? I 
heard of two. In fact, I did not just hear about them. There 
was a magazine, Landline, I think it was, a trucker magazine, 
that did a little story about two Native American women that 
were driving somewhere out West.
    Ms. Rush. I am not familiar with them.
    Senator Campbell. You are not?
    Ms. Rush. No.
    Senator Campbell. Does your firm, or the NABA, engage 
tribes or tribal colleges in recruiting?
    Ms. Rush. Recruiting has been our biggest challenge, 
because we have had a lot of hyper-growth within our industry. 
Then when 9-11 hit, it was just a phenomenal experience to 
survive through all the changes you had to respond to. So I am 
proud of our team for doing that.
    It has always been a vision to set up a recruiting network 
on tribes. One of the challenges, as mentioned today is, you 
need experience. We have such a critical shortage, and a lot of 
opportunity, that my insurance, the rates have gone up 100 
percent in our industry. For us, that is just millions of 
dollars. So one of the clauses is, they have to have 2 years 
experience.
    So I have the vision to network on tribes, and leverage 
driving schools that already exist, and sponsor Native people 
that are interested, but we have not had the process fully 
formed.
    Senator Campbell. When the driver comes to you, and they 
have gotten out of a driving school somewhere and you hire 
them, do you have your own training program, too, for your 
company, that they have to go through?
    Ms. Rush. Yes; ours is not as formalized as perhaps a Fed 
Ex or Warner or Swift. But what we typically do, because the 
Rush group has five separate companies under it, and one is a 
local city, we will team them with a driver for 2 to 4 weeks in 
the city, to get stop and go, and more processes of backing up. 
Then we will team them for a shorter haul and then long haul.
    Our company has a uniqueness to appeal to the driver that 
wants to be home every night; to the driver, every week; to 
once a month.
    Senator Campbell. So you have dedicated runs?
    Ms. Rush. Yes, yes, we do.
    Senator Campbell. Well, I thank you, and I thank everyone 
on this panel for testifying today. I am determined to try to 
move this bill. I think it is a good bill. I know that Senator 
Inouye, who had a conflict this morning and could not be here, 
will be very helpful with it, too.
    What we are going to do is keep the record open. If you 
have any additional comments that you would like to submit, if 
you would write them down and send them in; or if anybody in 
the audience would like to submit some comments, too.
    I look forward to trying to move this bill, this year. We 
only have really about 1\1/2\ months left, before we are 
adjourned for the year. But I think it has the seeds of a 
really good bill.
    So I thank you for appearing, and the committee is 
adjourned.
    [Whereupon, at 10:56 a.m., the committee was adjourned, to 
reconvene at the call of the Chair.]
=======================================================================


                            A P P E N D I X

                              ----------                              


              Additional Material Submitted for the Record

=======================================================================


 Prepared Statement of David Fluke, Professional Driver, FedEx Freight 
                                  West

    Chairman Inouye, Senator Campbell, members of the committee, thank 
you for the opportunity to express the trucking industry's perspectives 
regarding truck driving training issues and, more specifically, S. 
1344, the ``Native American Commercial Driver Training and Technical 
Assistance Act.'' I am David Fluke, a professional truck driver for 
FedEx Freight West based in California, a distinguished member of the 
American Trucking Association's America's Road Team, and a proud member 
of the Cherokee Nation. I have driven large trucks professionally in 
the United States for 18 years, and I am proud to communicate to you 
that I have logged over 1.8 million accident-free and citation-free 
miles behind the wheel in my driving career. Additionally, I have 
competed in four truck driving championship events and, in 2001, 
represented FedEx at the National Truck Driving Championships. I am 
also pleased to note that I have won numerous FedEx safety awards, 
including the prestigious President's Award.
    I am appearing before the committee today on behalf of the American 
Trucking Associations, Inc. [ATA]. ATA is the national trade 
association of the trucking industry. ATA is a federation of affiliated 
State trucking associations, conferences, and other organizations that 
together include more than 35,000 motor-carrier members, representing 
every type and class of motor carrier in the Nation. ATA represents an 
industry that employs nearly 10 million people in our great country, 
providing 1 out of every 14 civilian jobs. This includes the more than 
3 million professional truck drivers who travel over 400 billion miles 
per year to deliver to Americans 87 percent of their transported food, 
clothing, finished products, raw materials, and other items.\1\
---------------------------------------------------------------------------
    \1\ 87.3 percent by revenue. American Trucking Associations, U.S. 
Freight Transportation Forecast to 2013, 2002.
---------------------------------------------------------------------------
    ATA supports S. 1344 and commends Senator Campbell for its 
introduction.
    Looking at the industry figures mentioned above, you can readily 
see that the old adage, ``If you got it, a truck brought it,'' is truer 
now than it has ever been. While trucking may not be the most glamorous 
industry, it is definitely one of the most essential industries to the 
American economy. Every business and every person in this country 
relies on trucks to move America's goods safely and efficiently. 
Drivers, of course, are the key to delivering the freight on time, 
every time. In fact, the keys to a thriving trucking business are 
literally and figuratively in the hands of the company's professional 
drivers. And, while professional driving continues to become more 
complex, requiring more sophisticated skills and a higher tolerance of 
stress than ever before, I am pleased to report that truck drivers are 
delivering the goods more safely and more efficiently than ever before.
    According to the Federal Motor Carrier Safety Administration 
[FMCSA], the safety trends in the trucking industry are clearly heading 
in the right direction. In their most recent report entitled, ``Large 
Truck Crash Facts 2000,'' FMCSA reports that over the last 20 years 
[1980 to 2000], the fatal crash rate for large trucks has declined from 
4.6 fatal crashes per 100 million miles traveled to 2.2 fatal crashes 
per 100 million miles traveled, a 52-percent decrease. FMCSA also 
reports that the large truck injury and property damage crash rates are 
also on the decline. From 1988 to 2000 [1988 was the first year in 
which FMCSA's predecessor agency began collecting and analyzing injury 
and property damage crash data], the large truck injury crash rate has 
declined from 67.9 injury crashes per 100 million miles to 46.8 injury 
crashes per 100 million miles, a 31-percent decline. Similarly, the 
property damage only crash rate has declined between 1988 and 2000 from 
210.7 crashes per 100 million miles to 163.7 crashes per 100 million 
miles, a 22-percent decline. FMCSA also reports that alcohol 
involvement for large truck drivers involved in fatal crashes has 
declined 73 percent since 1982, the first year that the U.S. Department 
of Transportation's Fatality Analysis Reporting System [FARS] included 
data for alcohol involvement in fatal crashes. It is for these and 
other reasons that professional drivers like myself are proud of our 
profession and the industry we work within.
    ATA and its members have been involved in driver training issues 
since ATA's establishment in the 1930's. The reason for ATA's 
longstanding involvement is simple--well-trained drivers are safe 
drivers, and safe drivers save companies money. They are also more 
productive drivers, good caretakers of their equipment, and they are 
more adept at customer relations. Company investments in training and 
driver development result in improved safety performance and a 
reduction in personnel problems.
    While ATA has been active in many driver training initiatives, two 
are of particular note. The first is ATA's support for the Professional 
Truck Driver Institute [PTDI]. Established in 1986, PTDI has become the 
Nation's foremost advocate of optimum standards and professionalism for 
entry-level truck driver training. The Institute is credited with 
developing the first voluntary curriculum and voluntary standards 
recognized by both the industry and government. PTDI also provides a 
forum through which the key stakeholders--insurers, training schools, 
and motor carriers are able to help assure that America's entry-level 
drivers have been properly trained and are competent to enter the 
industry. ATA supports the mission of PTDI, and has provided both 
financial and technical assistance to the Institute for many years. In 
fact, PTDI is managed by the Truckload Carriers Association, an ATA-
affiliated organization.
    Additionally, ATA was one of the founding members of the Driver 
Training and Development Alliance in 1994. In early 1990's, trucking 
industry association managers agreed that motor carriers were making 
progress in implementing and managing voluntary driver training and 
development programs, but that more could be done. In mid-1994, 14 
trucking-related associations agreed to form the Driver Training and 
Development Alliance in order to gather, disseminate and promote 
successful voluntary driver training programs and activities. 
Throughout the 1990's, the Alliance sponsored annual forums for 
stakeholders to discuss and advance key training issues, it created a 
practical guide to identify commercial drivers at higher risk for 
accidents and violations and established effective countermeasures, and 
its members assisted in reviewing and improving PTDI's certification 
process for entry-level driver training programs. Through its 
involvement in these organizations, ATA has been a driving force in 
improving both entry-level and in-service driver training.
    Unfortunately, the trucking industry has been plagued with a 
chronic shortage of qualified drivers. Although the shortage eased in 
2001 as a result of the economic recession, the shortage is again 
becoming evident as the economy begins to move forward. David Goodson, 
Banner editor of the National Survey of Driver Wages, and now an 
industry consultant said recently ``the demographics that created the 
driver shortage haven't changed. Not enough new young drivers are 
coming into the industry and the shortage appeared to be over in 2001 
only because the recession cut the demand for trucking services so 
severely.''\2\
---------------------------------------------------------------------------
    \2\ Transport Topics, July 15, 2002.
---------------------------------------------------------------------------
    ATA estimates that the trucking industry will need more than 80,000 
new professional drivers each year for the foreseeable future. The 
industry will need approximately 35,000 qualified drivers because of 
industry growth and another 45,000-50,000 qualified drivers due to 
attrition, either from retirement or leaving the profession 
altogether.\3\ Thus, programs and initiatives aimed at expanding the 
pool of potential drivers are welcomed.
---------------------------------------------------------------------------
    \3\ Empty Seats and Musical Chairs, The Gallup Organization, 
October 1997.
---------------------------------------------------------------------------
    Additionally, the changing demographics of this country have 
clearly changed the trucking industry's recruiting practices. In its 
early days, trucking drew young, white males who sought independence 
and wanted to use the open road to see the country. Minorities are 
growing dramatically as a percentage of the U.S. population and, as a 
result, the industry is actively recruiting more drivers from minority 
groups [that is, Hispanics, African-Americans, Native Americans, et 
cetera]. Also, the industry is now recruiting heavily in areas other 
than the large population centers. As an example, if there is a 
confluence of Interstate highways in a rural area, carriers will seek 
to employ people who live in that area because it is easier to get them 
home on a more regular basis.
    ATA supports the efforts of Senator Campbell and the Committee on 
Indian Affairs to promote professional truck driver training programs 
at tribally controlled community colleges. If passed, S. 1344 holds the 
potential to provide a good career to many Native Americans interested 
in having an exciting career while moving America's economy. 
Professional truck driving is a career that more than 3 million 
Americans currently call their own. It is also a job that offers an 
opportunity to make a good wage--the average truck driver currently 
makes more than $40,000 annually. At the same time that this bill would 
provide opportunities for Native Americans, it will be assisting the 
trucking industry by expanding the pool of qualified driver 
candidates--an expansion that is sorely needed. S. 1344 offers the 
proverbial ``win-win'' scenario.
    Mr. Chairman and members of the committee, once again thank you for 
the opportunity to offer our thoughts on professional truck driver 
training issues and on S. 1344. We look forward to working with the 
committee in any way we can to put more well trained and qualified 
drivers on the road.
                                 ______
                                 

       Prepared Statement of Andra Rush, President, Rush Trucking

    5 Mr. Chairman Inouye, and Mr. Vice Chairman, Senator Campbell, 
thank you very much for the opportunity to address this committee on 
the Native American Commercial Driving Training and Technical 
Assistance Act.
    My name is Andra Rush. I am president of Rush Trucking, a $1-
million long haul and expediting operation in Detroit Michigan serving 
the auto industry since----
    I have been in the transportation industry for over 18 years and 
have seen the tremendous rise in demand for qualified drivers within 
this industry. We are faced with ``an'' ever increasing demand of 
inventory velocity ``of'' transportation via truck v. the rail mode of 
transportation of the past. The automotive industry has been a leader 
in minority supplier development and training. As a result, several 
strong small businesses have emerged creating numerous employment 
opportunities and further promotion of diversity based suppliers in 
North America.
    The driver shortage has been a critical problem of in our industry 
since the early nineties. The statistics demonstrate the demand for a 
solid strong driver base to fill vacancies that exist now and for the 
future. The fact is, there are not enough qualified and trained drivers 
in the industry to support the demand. Competition in this industry has 
pressured small businesses to focus on survival and the limited 
financial resources have limited the ability to provide the training 
and technical assistance necessary to privately create and fund driving 
schools ``so necessary'' to supply the industry's needs.
    As this committee well knows, economic self sufficiency for Native 
people remains an elusive goal. In spite of more than 175 years of 
Federal support and oversight, Native Americans rank last in every 
measurement of quality of life in the United States.
    As president of NABA (Native American Business Alliance, an 
organization formed 7 years ago in partnership with GM, Ford, DCX, 
Honda, and Toyota and which has now grown to more than 50 Fortune 500 
companies), I believe that America's First People can realize the 
American Dream and reclaim their proud heritage by identifying and 
capitalizing on gaps and niches in the American workforce.
    I am confident that the Commercial Vehicle driving professional 
career will create a workforce that can be rapidly employed and 
contribute to the solution of the driver shortage facing our industry 
and allow the Native people to remain on tribal lands and find 
employment that provides a living wage, solid benefits and opportunity 
for advancement.
    It is my goal that the US Senate approves and supports this 
legislation.
    Thank you very much Mr. Chairman Inouye and Mr. Vice Chairman, 
Senator Campbell.
                                 ______
                                 

Prepared Statement of James Shanley, President, American Indian Higher 
     Education Consortium, Fort Peck Community College, Poplar, MT

    Mr. Chairman, Mr. Vice Chairman, and distinguished members of the 
committee, thank you for inviting me to testify before your committee 
today. My name is Dr. James Shanley, and I am honored to be here in my 
capacity as president of the American Indian Higher Education 
Consortium [AIHEC] and as president of Fort Peck Community College, 
which is located on the Great Plains of the Fort Peck Indian 
reservation in northeast Montana.
    In 1972, six tribally controlled colleges established the American 
Indian Higher Education Consortium--AIHEC to provide a support network 
for its member institutions. Today AIHEC represents 32 tribal colleges 
and universities in 12 States to specifically serve the higher 
education needs of American Indian students. Over the past 3 decades, 
tribal leaders have continued to recognize that only through local, 
culturally relevant, and holistic methods, can many American Indians 
succeed in higher education. Collectively, the tribal colleges 
currently serve approximately 30,000 full- and part-time students from 
over 250 federally recognized tribes. A majority of our member 
institutions offer 2-year degrees and vocational certificates, with 
eight colleges offering baccalaureate degrees, and two that offer 
Masters degree programs. Together, we are proud to say we represent the 
most significant and successful development in American Indian 
education history, promoting achievement among students who would 
otherwise never know educational success.
    Tribal Colleges and Universities [TCUs] are deeply tied to the 
welfare of our respective communities. Our reservations are located in 
remote areas, and our populations are among the poorest in the Nation. 
On average, median household income levels are only about one-half of 
the level for the U.S. population as a whole. Conditions on the 
reservations make for stagnant economies. Postsecondary educational 
programs at tribal colleges, including vocational education, make it 
possible for our students to train for and obtain jobs that offer 
stability, benefits, and a decent salary, which in turn reduce welfare 
dependence and provide an economic boost to local communities. Most 
importantly, these programs, and the resulting boost in employment, aid 
in providing a sense of self-sufficiency that is critical in moving the 
American Indian people forward.
    Tribal colleges serve multiple roles in our communities: 
Functioning as community centers, libraries, tribal archives, career 
and business center, economic development centers, and public meeting 
places. TCUs can also serve as a practical resource for upkeep of 
communal property. Programs such as the one proposed in S. 1344 that 
require the acquisition of equipment that can serve dual uses are a 
ready aid to tribal governments. When not in use by the college for 
training programs, this equipment can be utilized for reservation 
economic development projects, such as construction of student and 
community housing, paving of local roads, and hauling food supplies and 
building materials.
    Mr. Chairman, despite their remarkable accomplishments, tribal 
colleges remain the most poorly funded institutions of higher education 
in the country. Funding for basic institutional operations for 24 
reservation-based colleges is provided through the Tribally Controlled 
College or University Assistance Act of 1978. Funding under the act is 
authorized at $6,000 per full-time Indian student [ISC]. In fiscal year 
2002, 21 years after funding for institutional operations was first 
appropriated under this act, the tribal colleges are receiving just 
$3,916 per ISC, less than two-thirds of the authorized level. While 
mainstream institutions enjoy a stable foundation of State and local 
support, TCU's rely on annual appropriations from the Federal 
Government for their institutional operating funds. Because we are 
located on Federal trust land, States bear no obligation to fund our 
colleges. In fact, most States do not even pay our colleges for the 
non-Indian State resident students who account for approximately 20 
percent of TCU enrollments.
    Vocational education programs and workforce training are time-
honored methods for improving the livelihoods of those who seek quality 
job skills in less time than it takes for a more formal course of 
study. However, in the past, basic instruction in a trade, any trade, 
was considered sufficient to fulfill the Federal government's 
obligation to educate American Indians. Often, the vocational education 
programs for American Indians were limited to what the Federal 
Government offered through the G.I. Bill, regardless of their 
suitability to the needs of the students or the areas in which they 
lived.
    TCU's now offer a wide range of vocational education specifically 
tailored to the Deeds of the students and their communities. Today, as 
this legislation recognizes, there is a tremendous need for commercial 
vehicle drivers and that need will only increase. This legislation 
would enable TCU's to expand even further the range of employment 
possibilities available to American Indian students and provide them 
with entry into this rapidly expanding and lucrative job market.
    One of the reasons only a few of the tribal colleges offer programs 
in commercial vehicle operations is the prohibitive startup costs. The 
per-student cost estimates do not take into account the enormous 
expense of equipment acquisition and maintenance. A brand new tractor-
trailer of the type frequently seen on our Nation's highways would cost 
about $150,000. Tribal colleges can obtain a sufficiently reliable used 
vehicle for about one-third that amount, but often the expense of 
frequent repairs and additional maintenance negate any temporary 
surplus in a program's budget. Furthermore, equipment must be brought 
up to legal standards of use once purchased, which can run as much as 
an additional $30,000.
    There are also considerable costs involved in the day-to-day 
running of vocational education programs such as training commercial 
vehicle drivers. Salish Kootenai College, on the Flathead Reservation 
in Western Montana, currently spends $300,000 annually on its Highway 
Construction Worker program, approximately $12,500 per student, and 
this does not include equipment acquisition costs, Our certificate 
program in Truck Driving/Heavy Equipment at Fort Peck Community College 
has similar per student costs. Our colleges receive no State aid, and 
are currently funding these programs through a patchwork of Federal 
grants and when necessary, deductions from other already stretched 
operating budgets.
    Another strain to already stretched resources is the expense of 
securing a sufficient number of certified instructors to meet the 
instructor-to-student ratio necessary to satisfy our strict 
accreditation standards. Programs like these that are based largely on 
hands-on experience make larger class sizes ineffective and unsafe. 
When class size; balloon, we must cut down on course offerings or risk 
going over our budget for faculty, and ultimately it is the students 
who pay the price.
    Of course, students not only need to be instructed in the 
fundamentals of their chosen trade, but in basic job seeking and 
related skills as well. Today's Tribal Colleges and Universities 
address both of these needs in a way that not only satisfies our 
students financially, but psychologically as well. A clear example of 
this is the Highway Construction Worker program at Salish Kootenai 
College where students are required to complete a course in job seeking 
skills, which prepares them to be effective competitors for employment 
in their chosen field. Such a comprehensive approach is invaluable in 
taking these programs from the abstract into that which is truly a tool 
for empowerment.
    We fully support this measure as providing positive assistance for 
our students to realize their full potential and offer great benefits 
to the economic health of our communities. Tribal colleges are deeply 
appreciative of any means through which they can increase and stabilize 
funding in operations and program areas.
    Mr. Chairman, the proposed legislation does not mention specific 
language about the level of funding or the duration of the grants, only 
the number of grants available. As noted earlier, vocational education 
programs not only have tremendous startup costs but considerable day-
to-day operational expenses as well. One concern we have is expending 
the significant costs involved for a college to start a training 
program that would only be funded for 1 or 2 years. Without adequate 
funding levels and enough time for each grant award, programs could be 
set up to fall.
    The awarding of 3- to 5-year grants would solve this problem by 
providing stable funding to get a program up and running. In addition, 
we suggest that the legislation not limit to four the number of grants 
that may be awarded by the Secretary of Labor but, instead, specify an 
adequate amount of funding to support that number of grants. For 
example, $300,000 x 4 = $1.2 million per year for 5 years--in other 
words a $6-million program. If additional funding can be secured for 
this program, the Secretary would not be limited to four awards, 
thereby allowing more colleges the chance to offer this valuable 
program to their students.
    We also believe that there could be additional employment 
opportunities if the proposed definition of ``commercial vehicle 
driving'' in section 3 of the legislation were expanded beyond, 
``driving of a vehicle which is a tractor-trailer truck,'' thereby 
giving the tribal colleges the flexibility to train students to do 
other truck and heavy equipment driving such as construction and 
logging trucks, water tankers and other vehicles requiring commercial 
licenses.
    There are also a few technical changes that we would respectfully 
suggest be made to S. 1344 and I will ask that our AIHEC staff address 
those minor changes with the staff of the committee, with whom they 
have long enjoyed a very productive working relationship.
    Mr. Chairman, in closing, I want to reiterate that the Tribal 
Colleges and Universities are committed to educating and training 
American Indian people and to moving more people from welfare to work. 
We are committed to revitalizing our communities and America's economy 
through education and training in areas of need, and we are committed 
to plowing any investment made by the Congress back into the education 
and training system in Indian Country, We appreciate this committee's 
long-standing support of tribal colleges, and we look forward to 
working with you to improving access to postsecondary educational and 
training opportunities for the betterment of American Indian students, 
and their communities.
    James E. Shanley, Ed.D.
    (Assiniboine) President, American Indian Higher Education 
Consortium Fort Peck Community College Poplar, Montana (406) 768-5551 
Dr. James E. Shanley is president of the American Indian Higher 
Education Consortium (AIHEC) which supports the work of the Nation's 32 
Tribal Colleges and serves as their collective voice, advocating on 
behalf of the institutions of higher education that are defined and 
controlled by their respective tribal nations.
    During Dr. Shanley's first term as AIHEC president in 1978, he 
provided substantial work and leadership in securing the passage of the 
Tribally Controlled Community College Act, Public Law 95-471.
    A member of the Fort Peck Assiniboine Tribe in Poplar, Montana, Dr. 
Shanley is presently serving his 17th year as president of Fort Peck 
Community College, a tribally controlled community college, chartered 
by the government of the Fort Peck Assiniboine and Sioux Tribes.
    Dr. Shanley's history is one of tremendous achievement and advocacy 
on behalf of American Indian education. He is continuously called upon 
by many national organizations for his recognized leadership. He served 
on the board of the American Council on Education and is a long-
standing trustee for the American Indian College Fund. Dr. Shanley is a 
primary founder of the College Fund, an organization that secures 
private sector support for AIHEC's member Tribal Colleges and 
Universities.
    On the State level, Dr. Shanley was treasurer of the Fort Peck 
Tribal Farm Board, Assiniboine and Sioux Construction Development 
director, and Assiniboine and Sioux Industries board director and 
treasurer. From 1975-80, he served as president of Standing Rock 
College--now, Sifting Bull College--in Fort Yates, North Dakota. During 
that time he was also active on the North Dakota Indian Education 
Association, Committee on the Humanities and Public Issues, and the 
Governor's Commission on Higher Education Facilities Planning.
    Regionally, Dr. Shanley was director of the Southwest Resource and 
Evaluation Center in Tempe, Arizona and the North Dakota Johnson-
O'Malley Program in Bismark, as well as the education manager of the 
United Tribes Education Technical Center.
    A Vietnam War veteran, Dr. Shanley earned a Doctorate in 
Educational Administration from the University of North Dakota; Master 
of Arts in Education from Arizona State University; and, Bachelor of 
Science in Education from Eastern Montana College.

                               <greek-d>

</pre></body></html>
